                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: A14020009                                                                     Page 1 of 1


         NSF OIG received an allegation that a researcher's name had been incorporated into a pending
         NSF proposal 1 without his permission, and that certain statements in the proposal about the
         researcher's activities were factually incorrect. Our analysis showed that the proposal mentions
         the researcher on three occasions, the most extensive of which lists him as a major user of
         existing institutional equipment comparable to the requested equipment. Upon receipt of further
         documentation, we learned that correspondence between the researcher and the PI showed
         previous discussions during the proposal preparation process. Although the researcher indicated
         he did not consider the proposal ready for submission, he did not unequivocally state that he
         would not participate in the project or utilize the requested equipment. Furthermore, while the
         submission of the proposal with factually incorrect statements is a matter of concern, these
         statements do not appear to have been critical to the strength of the proposal, or otherwise
         material, and appear to be the unfortunate consequences of a rush to finish a complex
         institutional proposal, rather than intentional misstatements made with intent to deceive.
         Therefore, the complaint did not contain any actionable allegation of research misconduct as
         defined by NSF regulation2 .

         Accordingly, this case is closed with no further action taken.




NSF OIG Form 4 (11102)
